                                           NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM




    The subject in this case,' a former NSF employee, contacted a current NSF employee2to have the
    employee set up a meeting with National Science Board members for the subject's current non-




    Accordingly, this case is closed.




I
      d                                                                                               -
     '\
    ,ST,
    '~3~
        I
                                                                                                                                                                              I1

                                                                                                                                                                          II



                                                                                     NATIONAL SCIENCE FOUNDATION
                                                                                                                                                                         Il
I                                                                                     OFFICE OF INSPECTOR GENERAL
                                                                                                                                                                        ,I
                                                                                        OFFICE OF INVESTIGATIONS
                                                                                                                                                                     I,


                                                                                   CLOSEOUT MEMORANDUM                                                              (I

                                                                                                                                                                    I




I          Case Number:                                                                                                 Page 2 o f 2
I

i
I                                                                                                                                                               I

                                           'this matter.
                                                                                                                                                            I1

I                                          ' Accordingly, this   case is closed.                                                                            j




I                                                                                                                                                           I



                                                                                                                                                            I




                                       I



                                                                                                                                                        I




                                   I
I
                                   I
                                                                                                                                                   I1

                                                                                                                                               18

                               I


                                                                                                                                               I




                                                                                                                                          11
                           I
                                                                                                                                          11



                       1
                                                                                                                                          I




                                                                                                                                     ,I




                                                                                                                                  I)




                                                                                                                                 I


                                                                                                                                 I


                                                                                                                                 I

                                                                                                                             I1


                                                                                                                            ,I
                   I
                                                                                                                            11




                                                                                                                            I
               I




      I
                                                                                                                        I




           i
                           4,          ._                                                                           I
